                f 

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                      Improved Information 

                      Could Better Enable EPA to 

                      Manage Electronic Waste 

                      and Enforce Regulations

                      Report No. 13-P-0298                   June 21, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Carolyn Copper
                                                   Jerri Dorsey
                                                   Heather Drayton
                                                   Jeffrey Harris
                                                   Jee W. Kim
                                                   Denton Stafford



Abbreviations

CRT                  Cathode ray tube
EPA                  U.S. Environmental Protection Agency
EPEAT                Electronic Product Environmental Assessment Tool
E-waste              Electronic waste
FEC                  Federal Electronics Challenge
GAO                  U.S. Government Accountability Office
GSA                  U.S. General Services Administration
ICR                  Information Collection Request
OECA                 Office of Enforcement and Compliance Assurance
OIG                  Office of Inspector General
OMB                  Office of Management and Budget
OPPT                 Office of Pollution Prevention and Toxics
ORCR                 Office of Resource Conservation and Recovery
ORD                  Office of Research and Development
OSWER                Office of Solid Waste and Emergency Response
PRA                  Paperwork Reduction Act
R2                   Responsible Recycling Practices
RCRA                 Resource Conservation and Recovery Act
SMM                  Sustainable Materials Management
TCLP                 Toxicity Characteristic Leaching Procedure


Cover photo: 	   Discarded devices such as (from left) cellular phones, computers, and circuit
                 boards found in electronics are commonly referred to as E-waste. (EPA photos)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mail code 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                               13-P-0298
                                                                                                          June 21, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Improved Information Could Better Enable EPA to 

The purpose of this review was      Manage Electronic Waste and Enforce Regulations 

to determine whether the
U.S. Environmental Protection        What We Found
Agency (EPA) has information
of sufficient quality to assess     EPA does not have adequate information to ensure effective E-waste
the adequacy of its electronic      management and enforcement to protect public health and conserve valuable
waste (E-waste) management          resources. For example, EPA manages E-waste without a consistent approach
and the effectiveness of its        for defining E-waste. This hampers EPA’s ability to effectively collect relevant
enforcement policies, to assure     information and set goals. Further, EPA lacks complete information on E-waste
that public health is protected.    disposition, which hinders the effective use of its resources.
E-waste is the fastest growing
domestic waste stream.              EPA enforcement is hampered by the lack of complete information on cathode
It includes devices such as         ray tube (CRT) exporters in the United States. This incomplete information
computers, televisions, and cell    hinders EPA’s ability to set enforcement targets for the CRT Rule. EPA also does
phones. E-waste contains toxic      not have a practical process to determine the hazardous nature of non-CRT
materials that pose hazards to      waste. Potentially toxic E-waste could be disposed in municipal landfills or
human health and the                incinerated without potential hazards being identified as required. Further, EPA
environment if not properly         advocates certified E-waste recyclers but has limited knowledge of the extent of
disposed or recycled.               compliance by certified recyclers with federal environmental regulations.
E-waste also contains valuable      In addition, EPA staff stated that E-waste management and enforcement are
materials. EPA encourages           hampered by federal information collection restrictions and a lack of resources.
reuse and recycling of
electronics over land-filling and    Recommendations and Planned Agency Corrective Actions
incineration. To that end, EPA
manages E-waste via federal         We recommend that EPA: (1) develop a consistent approach for defining E-waste
regulations, voluntary              and identifying information to manage the E-waste universe; (2) develop a
partnership programs, and           practical process to address hazards of non-CRT E-waste that ensures that this
support of third-party recycler     waste is managed in an environmentally sustainable manner; (3) evaluate
certification programs.             implementation of the certification programs for used electronics; (4) evaluate
                                    resource needs for E-waste management; (5) evaluate methods for gathering the
This report addresses the           information needed to set CRT Rule enforcement targets such as the use of
following EPA’s Goals or            Resource Conservation and Recovery Act Section 3007 information request
Cross-Cutting Strategies            letters to identify CRT exporters.
 Cleaning up communities           EPA concurred with all recommendations, but we consider these
  and advancing sustainable         recommendations unresolved pending receipt of planned corrective actions and
  development.                      completion dates.
 Enforcing environmental
  laws.                              Noteworthy Achievements
For further information, contact
our Office of Congressional and     EPA helped create the Responsible Recycling Practices certification body and
Public Affairs at (202) 566-2391.   created voluntary E-waste programs. EPA amended the CRT Rule to better track
                                    E-waste, and inspected facilities identified by the U.S. Government Accountability
The full report is at:              Office as “willing to violate” the CRT Rule. EPA also participated in the task force
www.epa.gov/oig/reports/2013/       that released the National Strategy for Electronics Stewardship in July 2011.
20130621-13-P-0298.pdf
                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460


                                                                                    THE INSPECTOR GENERAL




                                             June 21, 2013

MEMORANDUM

SUBJECT:	 Improved Information Could Better Enable EPA to
          Manage Electronic Waste and Enforce Regulations
          Report No. 13-P-0298

FROM:	         Arthur A. Elkins Jr.

TO:	           Mathy Stanislaus, Assistant Administrator
               Office of Solid Waste and Emergency Response

               Cynthia Giles, Assistant Administrator 

               Office of Enforcement and Compliance Assurance 


This is a report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. This report contains five
recommendations that the EPA agreed to. These recommendations are considered unresolved pending
our receipt of EPA’s corrective action plan and estimated completion dates.

Action Required

For all recommendations, you are required to provide corrective actions and planned completion dates
within 60 days of report issuance. We have no objections to the further release of this report to the
public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Assistant Inspector General
for Program Evaluation Carolyn Copper at (202) 566-0829 or copper.carolyn@epa.gov; or Acting
Director for Toxics, Chemical Management, and Pollution Prevention Jerri Dorsey at (919) 541-3601 or
dorsey.jerri@epa.gov.
Improved Information Could Better Enable EPA to                                                                           13-P-0298
Manage Electronic Waste and Enforce Regulations


                                   Table of Contents 


Chapters
   1    Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1      

                Background .................................................................................................       1      

                Prior Reports ...............................................................................................      6      

                Noteworthy Achievements ...........................................................................                6      

                Scope and Methodology ..............................................................................               7      


   2	   Improved Information Could Better Enable EPA to 

        Manage E-Waste and Enforce E-Waste Regulations ......................................                                      9


                EPA Needs a Consistent Approach to Defining E-Waste to Collect
                     Relevant Information and Set Management Goals............................                                     9

                EPA Needs Complete Information on National E-Waste Disposition
                     to Better Direct Its Limited Resources ...............................................                       11 

                EPA Needs Information on Domestic CRT Exporter Universe to
                     Target CRT Rule Enforcement Inspections .......................................                              13 

                EPA Needs a Practical Process to Characterize the Hazards of
                     Non-CRT Electronics to Ensure Proper Disposal of
                     Hazardous E-Waste .........................................................................                  14 

                EPA Needs Information on Compliance of Recycling Industry to
                     Support Its Advocacy of Certified Recyclers ....................................                             15 

                Conclusions.................................................................................................      17      

                Recommendations ......................................................................................            18      

                Agency Comments and OIG Evaluation ......................................................                         18 


   Status of Recommendations and Potential Monetary Benefits..............................                                        20 




Appendices
   A	   Agency Response and OIG Comments............................................................                               21 


   B    D
        	 istribution .........................................................................................................    33 

                                            Chapter 1

                                             Introduction

Purpose
                 This report addresses the U.S. Environmental Protection Agency’s (EPA’s)
                 efforts to promote proper management of end-of-life electronic waste (E-waste).
                 We sought to determine whether EPA has information of sufficient quality to
                 assess both the adequacy of its management of E-waste and the effectiveness of
                 its enforcement policies to assure that public health is protected.

Background
                 Disposal of End of Life Electronic Devices Presents Concerns

                 The use of electronic products has grown substantially over the past two decades.
                 According to the Congressional Research Service, E-waste refers to obsolete,
                 broken, or irreparable electronic devices. E-waste is the fastest growing category
                 of solid waste in the United States. EPA estimates that the United States generated
                 2.37 million tons of E-waste in 2009. Of that amount, 75 percent was disposed in
                 landfills or incinerated. Table 1 illustrates the disposal and recycling figures for
                 three key electronic devices in 2009.

                 Table 1: Management of used and end-of-life electronics in 2009 (millions of units)
                                       Ready for end-of-life                   Collected for    Rate of collection
                                          management             Disposed       recycling         for recycling
                   Computers                    47.4                29.4             18                38%
                   TVs                          27.2                22.7            4.6                17%
                   Mobile Devices               141                 129             11.7                8%
                   Source: EPA Office of Solid Waste and Emergency Response (OSWER).


                 Electronic devices are constantly evolving in design and contain varying amounts
                 of plastics, glass, and toxic materials.1 Electronics also contain precious metals
                 such as gold and rare earth metals.2 An opportunity for valuable resource
                 conservation is lost when these devices are disposed of in landfills or incinerated.
                 Further, EPA has serious concerns about unsafe handling of E-waste in
                 developing countries that result in harm to human health and the environment. For

1
  Electronic devices may contain the following potentially toxic metals: antimony, arsenic, barium, beryllium,

cadmium, chromium, lead, mercury, nickel, selenium, silver, and thallium.

2
  Rare earth metals and their compounds comprise 17 periodic elements. Due to their unique physical and chemical 

properties they are becoming widely used in electronics. Examples include europium (used in liquid crystal displays

and fluorescent lighting), yttrium (used in color television and computer monitors), and terbium (phosphors for

lighting and display). 



13-P-0298                                                                                                         1
                  example, open-air burning and acid baths are being used to recover valuable
                  materials from electronic components. This exposes workers and communities to
                  harmful substances. There are also problems with toxic materials leaching into the
                  environment. These practices can expose workers and communities to high levels
                  of contaminants such as lead, mercury, cadmium and arsenic. Such exposures can
                  lead to irreversible health effects, including cancers, miscarriages, neurological
                  damage and diminished intelligence.

                  According to an EPA Office of Research and Development (ORD) report,3
                  domestically, “a concern exists that e-waste may leach toxic chemicals into the
                  leachate of lined landfills or contaminate groundwater near unlined landfills.”
                  A Congressional Research Service Report4 noted that concerns about E-waste
                  landfill disposal have led federal and state governments to encourage recycling.
                  While there is no federal law requiring the recycling of E-waste, 25 states have
                  passed legislation mandating statewide E-waste recycling.5 Eighteen of those
                  states have determined which type of electronics to ban from state landfills or
                  incinerators and have completely banned disposal of these electronics in landfills
                  or incinerators.

                  In 2010, the President established the Interagency Task Force on Electronics
                  Stewardship to enhance the sustainable management of electronics throughout the
                  product lifecycle. The task force released the National Strategy for Electronics
                  Stewardship (National Strategy) in July 2011 with multiple action items under
                  four main goals. National Strategy is a priority-setting document for the federal
                  government and EPA made commitments as part of the strategy. These
                  commitments are governing the EPA activities and resources available for used
                  electronics. The strategy goals aim to protect human health and the environment
                  from the potentially harmful effects associated with the improper handling and
                  disposal of electronic devices.

                  EPA’s Management of E-Waste

                  The basis for EPA’s E-waste management is the Agency’s solid waste management
                  hierarchy (see figure 1). This hierarchy ranks the most environmentally sound
                  methods for municipal solid waste. Source reduction (including reuse) is the most
                  preferred method, followed by recycling, energy recovery, and treatment and
                  disposal. EPA’s main objective in its management of E-waste, based on the
                  hierarchy, is to encourage the use of more environmentally sound methods for
                  dealing with discarded electronics.



3
  EPA ORD Report, USEPA Region/ORD Workshop on Emerging Pollutants, p. 26 (2003). 

4
  Congressional Research Service Report, Managing Electronic Waste: Issues with Exporting E-Waste, p. 4 (2010).

5
  Twenty-five states have passed various forms of producer responsibility or take-back legislation; however, in most 

instances, the laws require that the producer (or importer) of the electronic product offer or finance take-back 

opportunities to their customers in the regulated states. 



13-P-0298                                                                                                           2
                         Figure 1: EPA solid waste management hierarchy




                         Source: EPA OSWER.

                 In support of this hierarchy, EPA enforces regulations, and encourages
                 participation in E-waste voluntary programs and the use of third-party certified
                 recycling companies. We detail each of these in the following sections.

                 EPA’s Regulation of E-Waste

                 EPA regulates the management and disposal of E-waste through Resource
                 Conservation and Recovery Act (RCRA) authority.6 As part of the RCRA
                 regulatory program, EPA also issued a specific rule to manage cathode ray tubes
                 (CRTs) after testing confirmed they contained lead above regulatory limits.7

                 RCRA

                 A RCRA goal is to ensure that hazardous wastes are managed in a manner that is
                 protective of human health and the environment.8 As part of this goal, hazardous
                 waste cannot be disposed in municipal solid waste landfills and other non-
                 hazardous waste landfills. If waste is listed as hazardous waste or has hazardous
                 characteristics9 and is not otherwise exempt or excluded from RCRA, the waste is
                 considered RCRA hazardous waste. Hazardous wastes must be treated and
                 disposed in EPA-approved hazardous waste landfills that have more regulatory
                 controls than municipal solid waste landfills. Wastes that are hazardous solely
                 because they have a hazardous characteristic may be considered non-hazardous
                 and disposed in a municipal landfill after they have been treated to decharacterize
                 them and meet other waste treatment requirements.


6
  42 U.S.C. § 6901 et seq. 

7
  71 Fed. Reg. 42927- 949, (July 28, 2006) (codified at 40 C.F.R. §§ 261.39 – 261.41). RCRA Toxicity 

Characterization of Computer CPUs and Other Discarded Electronic Devices (2004), available at 

www.ees.ufl.edu/homepp/townsend/Research/ElectronicLeaching/default.asp. 

8
  42 U.S.C. § 6902(a)(4).

9
  There are four hazardous waste characteristics: ignitability, corrosivity, reactivity, and toxicity. 



13-P-0298                                                                                                  3
                  E-waste is regulated as a RCRA hazardous waste when a non-household waste
                  generator disposes of used electronics that exhibit a hazardous characteristic at a
                  quantity more than 220 pounds per month.10 E-waste can be hazardous or non-
                  hazardous, leading to different EPA management approaches. E-waste is
                  considered hazardous by RCRA when a waste generator has knowledge that
                  discarded waste is hazardous or the waste tests hazardous for a characteristic.11
                  Under the federal regulations, electronic devices can be disposed in municipal
                  landfills if they are considered non-hazardous or the devices are otherwise exempt
                  or excluded from RCRA.

                  CRT Rule

                  Used CRTs are the only electronic devices specifically regulated as hazardous
                  waste.12 CRTs are the video display component of computers and television
                  monitors.13 Many CRTs from color monitors exceed EPA’s Toxicity
                  Characteristic Leaching Procedure (TCLP) regulatory limit for lead content.14
                  Therefore, RCRA controls CRT end-of-life management, including export.15
                  EPA’s CRT Rule went into effect in 2007. The rule’s purpose is to encourage the
                  recycling of used CRTs and CRT glass by conditionally excluding recycled CRTs
                  from full RCRA hazardous waste management requirements.16 The rule created
                  alternative management requirements for CRT tubes and glass being recycled,
                  and applies to CRT exporters and recyclers in the United States.17 The rule
                  requires CRT exporters and recyclers in the United States to comply with existing
                  hazardous waste notice and consent requirements and additional hazardous waste
                  management regulations for CRT tubes and glass.18 Domestic CRT recyclers must
                  follow packaging, labeling, and storage requirements.19




10
   Household and conditionally exempt small quantity generators (generators < 220 lbs per month) are generating

hazardous waste if their waste expresses a hazardous characteristic (such as exceeding a toxicity characteristic 

regulatory value); however, they have been excluded from having to manage those materials in a hazardous waste 

landfill. See 40 C.F.R part 261 Subpart C; 40 C.F.R § 261.4(b)(1); 40 C.F.R §261.5(a); and 40 C.F.R §262.11. 

11
   It is the generators’ duty to determine whether they have a hazardous waste. 

12
   There is a body of evidence to show that the CRT exceeds the toxicity characteristic regulatory limit for lead. 

However, if the CRTs are recycled under the required conditions they are excluded from the definition of solid 

and, therefore, hazardous waste. 

13
   71 Fed. Reg. 42928 (July 28, 2006). 

14
   CRTs also contain cadmium and mercury. 71 Fed. Reg. 42930 (July 28, 2006). 

15
   71 Fed. Reg. 42949 (July 28, 2006). 

16
   71 Fed. Reg. 42928 (July 28, 2006). 

17
   Id. 

18
   40 C.F.R. § 261.39 – 261.41. 

19
   40 C.F.R. § 261.39. Also, on March 15, 2012, EPA proposed a rule change to better track exports of CRTs for 

reuse and recycling. 77 Fed. Reg. 15336- 343 (March 15, 2012).


13-P-0298                                                                                                              4
                EPA’s Voluntary Programs

                EPA established a number of voluntary programs and initiatives to address the
                solid waste management hierarchy for E-waste.20 These efforts encourage federal
                agencies to purchase greener electronics and manage used electronics in an
                environmentally safe manner. Specifically, voluntary programs include the Federal
                Electronics Challenge (FEC) and the Federal Green Challenge under the Agency’s
                Sustainable Materials Management (SMM) Electronics Challenge. EPA also
                provides technical support for the Electronic Product Environmental Assessment
                Tool (EPEAT). EPEAT was developed using an EPA grant and is managed by a
                third party called the Green Electronics Council. The EPEAT program aims to
                reduce the amount of E-waste that needs to be reused, recycled, or managed while
                reducing the amount of toxic material found in electronics waste. EPEAT aids
                purchasers in buying the greenest equipment by informing purchasers of the
                electronic products’ environmental criteria.21

                Third Party Certifications

                EPA encourages recyclers to be certified by one of two electronics recycling
                certifications. The two available certification programs are Responsible Recycling
                Practices (R2) and e-Stewards. EPA relies on third parties to ensure that domestic
                recyclers adhere to certification standards. The certifications share common
                elements that promote responsible used electronic recycling. Both programs set
                best management practices for safe electronic device recycling. EPA convened a
                3-year multi-stakeholder process to develop the R2 standard. The Basel Action
                Network, a non-profit organization, created the e-Stewards certification.

                Roles of EPA Offices in Managing the Hierarchy

                Multiple EPA offices are responsible for managing E-waste under the solid waste
                management hierarchy:

                     	 Office of Resource Conservation and Recovery (ORCR), within OSWER,
                        develops E-waste policy. ORCR also manages the Federal Green
                        Challenge component of the SMM Electronics Challenge.
                     	 Office of Enforcement and Compliance Assurance (OECA) enforces
                        compliance with the CRT Rule. OECA also provides assistance,
                        monitoring, and enforcing compliance with RCRA hazardous waste
                        regulations by inspecting regulated facilities.
                     	 Office of Pollution Prevention and Toxics (OPPT), within the Office of
                        Chemical Safety and Pollution Prevention, manages the national voluntary
                        programs (e.g., FEC and technical support for EPEAT) with a focus on
                        pollution prevention and federal environmental stewardship practices.

20
  EPA’s E-waste voluntary programs were developed prior to the development of the National Strategy.
21
  The current National Strategy seeks to encourage consumer purchasing of EPEAT products and development of
new EPEAT standards for non-EPEAT products.


13-P-0298                                                                                                     5
                       ORD works with EPA’s program and regional offices to develop research
                        plans for E-waste studies.
                       EPA regional offices support and implement the E-waste strategies of the
                        above headquarters offices.

Prior Reports
                A prior EPA Office of Inspector General (OIG) report evaluated EPA’s various
                E-waste projects and their outcomes. Report No. 2004-P-00028, Multiple Actions
                Taken to Address Electronic Waste, But EPA Needs to Provide Clear National
                Direction, was issued September 1, 2004. This report noted that EPA
                implemented or participated in many projects that enhanced the general awareness
                of E-waste issues. However, EPA lacked a clear set of program goals and
                measures of effect. We concluded that due to incomplete actions related to
                E-waste, EPA could not ensure that it was effectively addressing the human
                health and environmental risks associated with E-waste. Additionally, EPA had
                not adequately defined the information required to characterize the E-waste
                problem or track progress.

                The U.S. Government Accountability Office (GAO) also evaluated EPA’s
                management of E-waste in several reports. These reports covered various EPA
                E-waste issues, including EPA’s voluntary programs, CRT Rule enforcement, and
                the FEC.22

Noteworthy Achievements
                Since the 2004 OIG report, EPA provided funding to and facilitated R2
                development with electronics stakeholders. EPA launched EPEAT and FEC. EPA
                issued the final CRT Rule in 2006. In March 2012, EPA proposed a CRT Rule
                amendment to enhance the ability of tracking CRT exports.

                Following publication of a GAO 2008 report, EPA Needs to Better Control
                Harmful U.S. Exports through Stronger Enforcement and More Comprehensive
                Regulation, EPA obtained the names of the 43 companies that GAO identified in
                its report as “willing to violate the hazardous waste regulations.” OECA worked
                with the regions to investigate all 43 listed companies and took formal or informal
                enforcement actions as needed.

                In 2010, EPA Regions 8, 9, and 10, with OECA coordination, participated in a
                cargo inspection exercise with the U.S. Department of Homeland Security’s

22 GAO  report, Electronic Waste: Strengthening the Role of the Federal Government in Encouraging Recycling
and Reuse 14 (2005); GAO report, Electronic Waste: EPA Needs to Better Control Harmful U.S. Exports through 
Stronger Enforcement and More Comprehensive Regulation (2008); GAO report, Electronic Waste: 
Considerations for Promoting Environmentally Sound Reuse and Recycling (2010); and GAO report, Actions 
Needed to Provide Assurance That Used Federal Electronics Are Disposed of in an Environmentally Responsible 
Manner (2012). 


13-P-0298                                                                                                 6
            Customs and Border Protection. The exercise involved inspecting electronic cargo
            at the seaports in EPA regions. This was part of the International Network for
            Environmental Compliance and Enforcement’s Seaport Environmental Security
            Network’s international hazardous waste inspection efforts. This exercise resulted
            in finding CRT Rule violations in Region 9. In 2012, as part of the Seaport
            Network’s second inspection project, EPA and Customs and Border Protection
            conducted targeted, joint inspections of electronic cargo at a Region 9 seaport,
            also with OECA coordination. Two additional Customs and Border Protection
            violations involving CRT exports were identified for enforcement action. The
            international network and its partners, including EPA, have plans to undertake
            additional cargo inspections at different domestic seaports.

            EPA, with the Council on Environmental Quality and the U.S. General Services
            Administration (GSA), co-chaired and actively participated in the national task
            force that released the National Strategy in July 2011. The strategy goals aim to
            protect human health and the environment from the potentially harmful effects
            associated with the improper handling and disposal of electronic devices.

            In 2012, EPA evolved the Plug-In to e-Cycling program to the SMM Electronics
            Challenge. The objectives of this challenge are to challenge manufacturers and
            retailers to voluntarily commit to sending 100 percent of used electronics
            collected for reuse and recycling to third party certified recyclers, increase the
            total amount of used electronics collected for reuse and recycling, and be
            transparent about their efforts by publically posting collection information and
            data.

Scope and Methodology
            We performed our evaluation from May 2011 to October 2012 in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform the evaluation to obtain sufficient and appropriate evidence.
            Further, this evidence must provide a reasonable basis for our findings and
            conclusions. The evidence obtained during this evaluation provides a reasonable
            basis for our findings and conclusions based upon our objectives.

            The scope of this evaluation included EPA’s E-waste voluntary programs and
            OECA’s RCRA enforcement efforts. Additionally, ORD’s role with E-waste
            research was analyzed to understand its function in contributing to needed science
            information.

            To address our objective, we reviewed and analyzed relevant federal regulations,
            guidance, appropriations information, public comments, and presentations. Our
            evaluation of the National Strategy and its action items is limited to their potential
            role in addressing the findings detailed in this report on EPA’s management of
            E-waste. We reviewed state electronic waste and producer responsibility
            regulations. We also conducted a literature review of applicable congressional


13-P-0298                                                                                        7
                 testimonies, proposed legislative changes, and research articles. We reviewed
                 prior E-waste evaluation reports from GAO and EPA OIG. We also examined
                 international policies that regulate E-waste.

                 During this evaluation, we interviewed program directors and staff from EPA’s
                 OECA, OPPT, ORCR, ORD, Office of Air and Radiation,23 and Office of
                 International and Tribal Affairs. We interviewed program directors and staff in
                 EPA Regions 4, 5, 7, 9, and 10.24 We interviewed program directors and staff
                 from the California Environmental Protection Agency and the Illinois
                 Environmental Protection Agency. We also met with representatives from
                 UNICOR,25 the Information Technology Industry Council, and the Institute of
                 Scrap Recycling Industries to gain their insights on EPA’s E-waste management.
                 We reviewed and analyzed documents provided to us at these meetings and
                 documents received from OIG information requests. We also reviewed certified
                 recycling facilities’ inspection information in the Agency’s Enforcement and
                 Compliance Online database.




23
   ORCR and the Office of Air and Radiation are responsible for E-waste incineration/combustion issues. ORCR is 

in charge of hazardous waste incineration; Office of Air and Radiation is in charge of municipal solid waste 

incineration.

24
   EPA regional offices were selected based on ORCR/OECA recommendations. 

25
   “UNICOR” is the trade name for Federal Prison Industries, Inc. 



13-P-0298                                                                                                       8
                                  Chapter 2

   Improved Information Could Better Enable EPA to 

   Manage E-Waste and Enforce E-Waste Regulations 

            Improved information could better enable EPA to manage E-waste and enforce
            E-waste regulations. EPA does not have a uniform definition of E-waste and
            adequate information on E-waste disposition. EPA’s lack of a uniform and
            consistent approach to defining E-waste hampers the Agency’s ability to
            effectively collect relevant disposal information and set management goals for
            E-waste recycling and reuse. With more accurate and comprehensive information,
            EPA could better direct its limited resources to the greatest needs of E-waste end
            of life management. Additionally, EPA lacks complete information on CRT
            exporters in the United States to help set enforcement targets for the CRT Rule.
            EPA also does not have a practical process to characterize the hazardous nature of
            non-CRT waste. Potentially toxic E-waste is disposed in municipal landfills or
            incinerated without having the hazards identified as required by RCRA. EPA also
            advocates that E-waste be processed by certified E-waste recyclers but has limited
            knowledge of the extent of compliance by certified recyclers with federal
            environmental regulations.

EPA Needs a Consistent Approach to Defining E-Waste to Collect 

Relevant Information and Set Management Goals 

            EPA does not have a uniform definition of E-waste or a comprehensive list of
            electronics that are categorized as E-waste. Further, the National Strategy does
            not seek to address the lack of a clear and consistent definition. EPA states that
            defining E-waste is difficult and not practical. The OIG concludes that a
            consistent approach to defining E-waste, such as a baseline definition or a list of
            devices, is necessary to properly characterize the size and composition of the
            E-waste universe. A consistent approach to defining E-waste would also serve to
            identify the information needed to effectively manage the risks from E-waste.
            For example, for each activity defining E-waste, EPA could include consistent
            categories such as types of devices, scarce resources contained, or potential for
            toxicity. However, EPA defines and lists E-waste differently in each of its
            programs and initiatives, including the National Strategy. The variance in
            definitions hampers EPA’s overall ability to effectively collect relevant
            information and set goals to manage the program. Without a clear and consistent
            management universe, EPA is unable to direct its limited resources toward
            developing goals and program activities to address program needs. The Agency’s
            2009 roadmap report for future materials management, Sustainable Materials
            Management: The Road Ahead, discussed the critical need to establish the
            universe when creating a materials management strategy analytical framework.
            EPA has not established the universe for its E-waste management strategy.


13-P-0298                                                                                     9
                 According to ORCR staff, electronics technology and composition are constantly
                 evolving. These changes make defining E-waste difficult and not practical. Staff
                 stated that the Agency develops official legal definitions when specific terms are
                 included in regulations, such as hazardous waste listings. Since there is no current
                 or proposed federal hazardous waste listing for E-waste,26 EPA has not seen the
                 need to define E-waste broadly.

                 ORCR staff expressed concern that a set definition is not flexible enough to adapt
                 to technological changes. The staff said that new electronics emerge on the
                 market and contain components not previously included in an official definition.
                 Under RCRA, hazards from used electronics can be identified as they occur. On
                 the other hand a hazardous waste listing is a static snapshot in time and would
                 need to be frequently updated to incorporate any new hazardous waste electronics
                 that are generated. ORCR staff explained that each program or initiative defines
                 E-waste uniquely to deal with technology changes and shifts in consumer
                 demand. This approach has resulted in numerous Agency E-waste definitions that
                 vary greatly in scope. For example, the National Strategy contains the following
                 broad statement:

                          For the purposes of this document, however, the Task Force
                          considers ‘e-waste’ as subset of ‘used electronics.’ Used electronics
                          can be reused, refurbished, and recycled, and can be a source of
                          valuable parts and/or raw materials (e.g., gold, copper, glass), which
                          can be returned to the supply chain to reduce overall waste.

                 In contrast, OPPT defines electronics more specifically for the purposes of the
                 FEC. OPPT targets common office electronics, such as desktop and laptop
                 computers for the FEC. At an EPA headquarters “E-cycling” event in April 2012,
                 39 separate electronic products were listed as “acceptable materials” for
                 E-cycling. This product list had not been incorporated into an official or
                 commonly utilized Agency definition.

                 The electronics recycler certifications have two different definitions of what
                 constitutes E-waste. Both programs used approaches to defining E-waste that
                 allow for flexibility with the evolving nature of electronics. R2 lists specific
                 equipment and uses a future provision to deal with the issue of evolving
                 technology. R2 includes “any other or new (future) types of equipment that are
                 designed primarily to store or convey information electronically, and any new
                 accessories to such equipment.” A future provision is one option for EPA to
                 address their concern of technological advancement. The other certification body,
                 e-Stewards, addresses the challenge of evolving technology by focusing on the
                 constituents contained in products. e-Stewards also makes a distinction between
                 hazardous and non-hazardous E-waste.


26
  The CRT Rule is the only federal E-waste-specific regulation. The rule applies to CRTs only and not to other
electronic products; while CRT is defined in the rule, E-waste is not.


13-P-0298                                                                                                        10
EPA Needs Complete Information on National E-Waste Disposition to
Better Direct Its Limited Resources
                 The 2004 OIG report on E-waste concluded that EPA lacked complete national
                 information. According to this report, the E-waste information collected was not
                 adequate to support management decisions. In response to the 2004 OIG report
                 recommendation regarding the volume of E-waste disposed in municipal solid
                 waste landfills, EPA issued end-of-life information in a report titled Electronics
                 Waste Management in the United States Through 2009. However, 8 years later,
                 the finding remains the same despite EPA’s efforts to address the OIG
                 recommendation. EPA lacks accurate and comprehensive information on the
                 volume of E-waste disposed, including information on municipal solid waste
                 landfills and also on the volume of E-waste recycled, in order to gather electronic
                 disposal data. Without such information, EPA cannot track the progress of its
                 efforts to support its waste management hierarchy goal of promoting E-waste
                 recycling and reuse over disposal. EPA is therefore unable to identify areas of
                 greatest need to direct its limited resources. The National Strategy does not fully
                 address this information limitation.

                 EPA acknowledged in the 2009 report that “there is a need for improved and
                 consistent reporting of electronic products collection and recycling . . . to develop
                 a clearer picture” of the United States’ used electronics end-of-life management.
                 Additional stakeholder collaboration, research, and information gathering is
                 necessary to address the existing information gap of representative and
                 comprehensive information concerning national figures for residential and
                 commercial use patterns, life span of electronic devices, and recycling collection
                 quantities. Further, the National Strategy echoes the 2009 EPA report by stating
                 that information on electronic device end-of-life disposition—such as disposal,
                 reuse, and recycling volume—would be useful “to determine the most effective
                 approaches to collection, recycling and reuse” but “there is little information
                 available.”

                 EPA’s 2009 report made the caveat that the lack of concrete information for the use
                 and management of end-of-life electronics limited the report findings. In particular,
                 EPA extrapolated the only available information, consisting of eight states and
                 representing 29 percent of the United States population, to estimate the total
                 quantity of electronic devices collected for recycling from residential sources
                 nationally in 2009. EPA also relied on surveys of recyclers to determine the amount
                 of electronic products collected from commercial sources. In the 2009 EPA report,
                 the Agency determined the national figure based on survey responses of only seven
                 recyclers.27 A Region 4 staff member asserted that the information in the report
                 may be accurate but is limited information and not comprehensive.



27
  EPA does not know the universe of non-certified recyclers. As of May 7, 2012, R2 had 202 certified facilities and
e-Stewards had 31 certified facilities.


13-P-0298                                                                                                        11
                 While implementation of the National Strategy is EPA’s current E-waste priority,
                 it does not fully address the limitations that impede EPA’s effectiveness in
                 gathering domestic E-waste information. According to EPA staff, the Office of
                 Management and Budget’s (OMB’s) Paperwork Reduction Act (PRA)
                 requirements and lack of resources hinder the Agency’s information gathering
                 activities. The PRA28 requires agencies to justify any collection of information
                 from the public. Agencies must describe the information to be collected, provide a
                 reason for why the information is needed, and estimate the time and cost for the
                 public to answer the request. Agencies are required to obtain OMB approval for
                 each information collection request (ICR) used.

                 EPA staff from both the voluntary and enforcement programs indicated that the
                 PRA was a challenge to their E-waste information collection efforts. The current
                 ICR in place allows EPA to collect E-waste information only from its program
                 partners. All other information collection efforts would be subject to PRA’s
                 “collection of information” requirement. This requires OMB to pre-approve
                 Agency information requests from 10 or more non-federal entities. EPA is thus
                 limited to surveying nine non-federal entities. If EPA plans to gather information
                 from 10 or more non-federal entities, the Agency will first need to apply for an
                 ICR. According to ORCR staff, programs determine whether to seek an ICR
                 based on need and whether they have a strong justification. In some cases, the
                 willingness of management to pursue the ICR is a factor. Deterrents can range
                 from lack of resources to the knowledge or perception that it would be too
                 difficult to seek an ICR and successfully get OMB approval. EPA E-waste
                 programs have only requested one ICR and it has been in place since 2008.

                 EPA’s lack of staff and resources devoted to the E-waste program further limits
                 the Agency’s ability to effectively gather E-waste information. ORCR staff said
                 the Agency’s involvement in addressing numerous National Strategy action items
                 has added to their work but additional resources were not provided.

                 In addition to lacking complete national information on E-waste disposition, EPA
                 is not taking full advantage of information from Agency-sponsored research.
                 Many EPA E-waste staff we spoke to were not familiar with relevant research that
                 the Agency has conducted on various E-waste issues (including the research
                 highlighted in the bullets below). We found that even ORD staff were not aware
                 of any of the E-waste research sponsored by ORD prior to 2011. Staff also said
                 that ORD had not done research on the disposal of end-of-life electronics.
                 Contrary to this claim, we presented EPA with excerpts from ORD’s 2007–2012
                 Multi-Year Plan for the land research program that included the following
                 E-waste issues:



28
  The PRA established the Office of Information and Regulatory Affairs within OMB to provide central Agency
leadership and coordinate government-wide efforts to reduce unnecessary paperwork burden and improve the
management of information resources.


13-P-0298                                                                                                     12
                        Pilot proposal to evaluate toxic constituents in electronic waste.
                        Preliminary assessment of research needs for electronics wastes sampling.
                        A joint ORD and OSWER (National Electronics Team) preparation of
                         E-waste disposal white paper.

                 ORD staff said that their responsibility did not include E-waste until they received
                 funding in the 2011 budget to look into E-waste. We concluded, based on this
                 statement and the general lack of awareness of E-waste research by most staff we
                 spoke with, that EPA has not incorporated information from past E-waste research
                 to better its programs.

                 Agency-sponsored research on E-waste is not stored in a central repository and
                 can be difficult to find for Agency staff. We found several E-waste-related
                 research documents in different websites. We were unable to find certain studies
                 identified in ORD’s list of projects.

EPA Needs Information on Domestic CRT Exporter Universe to Target
CRT Rule Enforcement Inspections
                 OECA does not have adequate information on the number of CRT exporters in
                 the United States to help them set enforcement targets for the CRT Rule. EPA
                 used the list of domestic exporters identified in the 2008 GAO report to identify
                 enforcement targets as part of EPA national enforcement initiatives.29 However,
                 the Agency has not developed up-to-date targets and relevant goals since that
                 initial effort. OECA staff said there are challenges in identifying the universe of
                 exporters. One challenge was that many exporters are “fly-by-night” (transient)
                 businesses. Other exporters go out of business or change names. Another
                 challenge is that EPA is only aware of exporters that are abiding by the CRT Rule
                 because EPA does not have the resources to identify all possible exporters.

                 According to Agency staff, EPA’s enforcement of E-waste is limited by its
                 staffing and funding levels. Regional staff said their mode of operation is more
                 reactive than proactive. Regional staff also stated that they do not have the budget
                 to proactively seek out CRT Rule violators. This lack of resources is why regional
                 staff focus on responding only to tips and complaints concerning potential CRT
                 Rule violations reported by the public and other stakeholders. Region 10 staff said
                 they would like to address E-waste issues in locations that are far from the
                 regional office but lack funds.

                 As a result of these limitations, EPA does not establish enforcement targets for the
                 CRT Rule. Thus, the Agency cannot measure the results of its CRT Rule
                 enforcement. EPA proposed a rule change in March 2012 for the current CRT
                 Rule to increase EPA’s ability to obtain more shipment information from

29
  GAO developed the list of targets by conducting undercover work posing as foreign buyers of broken CRTs and
identifying 43 U.S. exporters willing to ship broken CRTs in violation of the CRT Rule.


13-P-0298                                                                                                   13
                  exporters. However, OECA staff said the proposed changes will not improve the
                  current limitations for domestic exporter universe information. Therefore, the lack
                  of available information will continue to be an issue for CRT Rule enforcement.

                  Regional Best Practice: Use of RCRA Information Request Letters to
                  Identify CRT Exporters

                  Some EPA regions are implementing actions we consider a best practice. Under
                  the provisions of RCRA Section 3007(a),30 EPA may require persons who handle
                  or have handled hazardous waste to provide information relating to such wastes.
                  Several EPA regional offices use RCRA 3007 information request letters to
                  identify exporters of CRTs. Regional offices seek information concerning CRT
                  shipments to countries outside the United States. Of the regions we visited,
                  Regions 4, 9, and 10 utilize this technique. Region 9 was the most successful in
                  having several recyclers respond. Region 9 stated that they also visit recycling
                  facilities if they do not respond to the information request letters.

EPA Needs a Practical Process to Characterize the Hazards of
Non-CRT Electronics to Ensure Proper Disposal of Hazardous E-Waste
                  EPA does not have a practical process for determining the hazardous
                  characteristics of non-CRT E-waste.31 As such, EPA lacks information on the
                  potential hazard characteristics of non-CRT E-waste sent to landfills by
                  generators. Potentially toxic E-waste is disposed in municipal landfills or
                  incinerated without having the hazards identified as required by RCRA. The lack
                  of available information limits the effectiveness of EPA’s existing enforcement
                  efforts. According to Agency staff, the RCRA-required TCLP32 is not practical
                  for E-waste because it is costly and time consuming.33 Thus, generators of
                  E-waste are not testing with TCLP. Also, the Agency is not monitoring,
                  identifying, and enforcing improper non-CRT E-waste disposal.

                  It is difficult to conduct a TCLP on E-waste because the procedure requires small
                  particles for a representative sample. Further, electronic devices are large, bulky,
                  and heterogeneous with respect to locations of toxic elements. There are also
                  complications associated with the variability in testing results among similar
                  devices. For example, hazardous characteristics can differ for an electronic device
                  from the same manufacturer if the device was made in different years.

30
   42 U.S.C. § 6927(a) 

31
   CRTs are the only electronic devices where TCLP laboratory data were available for EPA to make a hazardous 

determination. Other devices tested in an EPA-sponsored study include laptops, printers, televisions, cell phones, 

remote controls, and computer mice. Each of these devices exceeded toxicity characteristic levels in at least one test. 

However, EPA’s opinion is that it has not reached the rulemaking threshold of available laboratory data for such

devices.

32
   When establishing RCRA, Congress authorized EPA to establish criteria that characterize wastes by identifying

potential hazards to human health and the environment (40 C.F.R. § 262.11(c)(1)). Accordingly, one of the tests 

EPA designed was the TCLP. This test was intended to predict leaching potential of wastes when mismanaged. 

33
   TCLP can take several days and cost as much as $3,000 for a full analysis. 



13-P-0298                                                                                                            14
            Nonetheless, some electronic devices test hazardous under TCLP. For example,
            TCLP of circuit boards indicate that circuit board lead levels exceed the RCRA
            regulatory limit of 5.0 milligrams per liter.

            The identification, characterization, and handling of the regulated waste stream
            are the central goals of OECA’s RCRA Compliance Monitoring Strategy. Under
            RCRA, generators are required to determine whether their solid waste is
            hazardous. This can be accomplished by either testing the waste or applying their
            knowledge of the materials or processes used. In contrast, E-waste generators are
            currently not testing electronics as part of the hazardous waste characterization
            due to the high cost and time resources. Further, EPA is not enforcing its RCRA
            authority in this area when warranted and it is not independently testing electronic
            devices to be able to verify generator determinations. Currently, if the device is
            not a CRT, EPA does not have the information to challenge the generator’s
            position of the device being hazardous or non-hazardous. Therefore, EPA does
            not have a practical process to validate generators’ non-hazardous waste claims.
            E-waste generators will likely continue to not test until EPA or another authority
            enforces and/or mandates this requirement. This gap in enforcement leads to
            uncertainty on the potential hazards of generator-discarded E-waste in landfills.

            In reference to the findings in the 2004 OIG report, EPA stated that the Agency is
            in the process of assessing the appropriateness of TCLP to non-CRT electronic
            devices. ORCR staff stated that their office, along with ORD, did research
            alternative leach testing approaches. However, these approaches would not solve
            the challenges that exist when applying the TCLP to electronics (i.e., these newly
            developed tests are just as expensive and time consuming as TCLP). OECA staff
            said that they have not made any rulemaking requests. However, the staff would
            like EPA to develop a more practical procedure for identifying hazards in
            electronics. To reduce the uncertainty regarding used electronics’ hazardous waste
            determination status, EPA should develop a more practical waste characterization
            process for non-CRT electronics. This would permit enforcement staff to conduct
            proper enforcement of the RCRA requirement.

EPA Needs Information on Compliance of Recycling Industry to
Support Its Advocacy of Certified Recyclers
            EPA encourages E-waste recycling companies to receive certification. In addition,
            the National Strategy has a goal of ensuring that the federal government leads by
            example. One action item to achieve that goal is to establish a comprehensive
            government-wide policy on used federal electronics that ensures all federal
            electronics are processed by certified recyclers. However, the Agency does not
            know whether certified recyclers comply with the certifying organizations’
            standards that align with federal regulations.

            EPA encourages electronics recyclers to receive certification by either R2 or
            e-Stewards. Companies voluntarily submit to these independent certifications.


13-P-0298                                                                                    15
                  The standards serve as an important control in the electronics recycling process.
                  Both certifying bodies have their own audit processes. However, EPA does not
                  have a routine practice of independently auditing recycling facilities for RCRA
                  compliance.34 Both certification programs require that facilities comply with all
                  federal and state environmental, health, and safety regulations, including RCRA
                  hazardous waste disposal and record keeping provisions. EPA regional staff
                  expressed concerns with the certification programs inspecting for these
                  provisions. Staff from Region 10 characterized EPA’s reliance on the certification
                  programs as a “challenge.” Region 10 staff explained that they did not know
                  whether the certification organizations were reviewing the recyclers’ compliance.
                  Region 7 staff would not recommend some certified recyclers because of poor
                  housekeeping practices which are violations of RCRA standards. This staff also
                  knew of recyclers that were compliant with standards but, due to the high costs of
                  obtaining a certification, were not certified.

                  The National Strategy emphasizes the use of certified recyclers for all federal
                  electronics. As part of the on-going National Strategy effort, EPA, in
                  collaboration with GSA and the applicable accreditation board, will review the
                  need to initiate a study of the implementation of the currently used electronics
                  certification programs. This review will also evaluate such aspects as
                  vigorousness of facility and downstream audits, consistency and frequency of
                  audits, and auditor training. The implementation study applies only to recyclers
                  that federal agencies utilize and will be used to assist in determining which
                  certification programs to use. During this review, EPA plans to participate as an
                  observer and accompany GSA on facility visits. Any recommendations will go to
                  the accreditation board or third-party certifier.

                  This planned upcoming review of the certification programs associated with the
                  National Strategy should provide some level of assurance that certified recyclers
                  are complying with federal regulations. However, the National Strategy review
                  will not address federal regulatory compliance issues at certified facilities that
                  arise outside this limited review. EPA should include certified recyclers in its
                  RCRA inspection work plans to ensure that they are complying with federal
                  regulations. Otherwise, EPA has no assurance the certified recyclers abide by R2
                  or e-Stewards recycling standards’ requirement that recyclers comply with all
                  applicable environmental, health, and safety regulations. As a result, EPA risks
                  recommending certified recyclers that may fail to adhere to federal environmental
                  regulations, which may ultimately harm human health and the environment.




34
  Of the 233 recycling facilities that R2 and e-Stewards have certified, EPA has inspected 10 R2 facilities and zero
e-Stewards facilities (10 inspections equals 4 percent of total certified recyclers) as part of RCRA inspection. These
are not “audits” of recycling certification standards but RCRA hazardous waste inspections of facilities. Six of the
10 facilities inspected did not comply with RCRA. The analysis numbers represent OIG’s review performed on
May 4, 2012 (R2) and May 7, 2012 (e-Stewards). As of October 26, 2012, 342 electronics recycling facilities have
been certified by one or both of the certification programs.


13-P-0298                                                                                                           16
            Additionally, EPA lacks information on the size and compliance status of
            non-certified recyclers. EPA’s focus in managing E-waste is to encourage
            recycling. However, the Agency does not have information about the E-waste sent
            to the recyclers. EPA Region 4 staff said many of the facilities inspected have
            RCRA violations. In one case, regional staff found six mason jars (70 pounds) of
            mercury inside the facility. The staff in Region 4 believe that, based on their
            inspections, improper recycling of E-waste is a domestic environmental problem.
            EPA needs to target electronic recyclers in the RCRA inspections to ensure that
            non-certified recyclers are adhering to federal regulations.

            Regional Best Practice: Targeted Inspections of Electronic Facilities

            EPA Regions 4 and 7 target electronic recycling facilities as an enforcement
            priority. Region 4 found RCRA violations during inspections. Region 4 planned
            to focus on E-waste enforcement in 2011, and the region did carry this focus over
            to 2012. According to Region 4’s E-Waste Inspection/Enforcement Strategy, the
            region proposed to inspect at least 10 E-waste collection facilities. These
            inspections led to finding RCRA violations at several facilities in 2011.

            Additionally, Region 4 identifies “downstream recyclers” based on its inspections
            of targeted facilities. The region’s inspection of several downstream recyclers has
            resulted in the discovery of RCRA violations. Region 4 staff noted they find the
            worst violators when they look “downstream” from the initial targeted recycler.

            Region 7 is targeting the electronics recycling facilities in its RCRA inspections
            to identify recyclers who may be exporting CRTs without notifying EPA.
            Region 7 staff said that the region reviews the results of inspections, including the
            violations found. Based on this review, Region 7 revises inspection plans for the
            following year. If inspections find no violations in the electronics sector, the
            region will look at a different sector for the following year. The region can also
            conduct compliance outreach based on violations. Region 7 staff stated that they
            are inspecting the region’s recycling contractor with the purpose of assuring that
            their contractor is RCRA compliant.

Conclusions
            EPA has limited information and resources to ensure effective management and
            enforcement of the fastest growing waste stream in the country. EPA has made
            several advancements in recent years. However, if more comprehensive measures
            are not taken, EPA’s ability to manage this complex issue will continue to be
            limited.




13-P-0298                                                                                      17
Recommendations
            We recommend that the Assistant Administrator for Solid Waste and Emergency
            Response:

               1. 	 Develop a consistent approach for defining E-waste to set the conditions
                    for goal setting and tracking. Identify and gather information to manage
                    the goals and, if necessary, submit an ICR request to OMB.

               2. 	 Develop a more practical process to address the hazards of non-CRT
                    electronic waste that ensures that this waste is managed in an
                    environmentally sustainable manner.

               3. 	 Evaluate the implementation of currently used electronics certification
                    programs as detailed in the National Strategy. If necessary, conduct RCRA
                    inspections (for federal regulations only) of certified recyclers
                    accordingly.

               4. 	 Evaluate resource needs for E-waste management and direct available
                    additional resources as needed.

            We recommend that the Assistant Administrator for Enforcement and Compliance
            Assurance:

               5. 	 Evaluate methods for gathering the information necessary to set CRT rule
                    enforcement targets such as the use of RCRA 3007 information request
                    letters to identify CRT exporters.

Agency Comments and OIG Evaluation
            OSWER concurred with recommendations 1, 2, 3, and 4, and OECA concurred
            with recommendation 5. These recommendations are unresolved pending receipt
            of corrective actions and completion dates.

            OSWER responded at the exit conference that development of a uniform
            definition (recommendation 1) is not feasible at this time but reiterated the agency
            comments that the agency will continue to define for each individual program.
            At a subsequent meeting, the OIG presented modified recommendation language
            to facilitate the Agency in considering a more consistent approach to defining
            E-waste for its various programs. OSWER agreed to the modified
            recommendation. We consider this recommendation unresolved pending receipt
            of corrective actions and completion dates.

            OSWER disagreed with recommendation 2 in its initial response and to OIG’s
            modified recommendation language at a subsequent meeting because any
            drawbacks that the TCLP may have with testing the leachability of waste


13-P-0298                                                                                      18
            electronics would also apply to any alternative testing procedures and processes,
            including alternative leaching processes that could be used. The OIG accepted
            OSWER’s proposed revision to recommendation 2.We consider this
            recommendation unresolved pending receipt of corrective actions about
            OSWER’s ability to monitor, identify, and ensure proper disposal of non-CRT
            E-waste disposal, including completion dates.

            OECA disagreed with the OIG’s initial recommendation 5 because the current
            regulatory requirements and proposed modifications to the CRT rule will deem
            additional information gathering efforts unnecessary. The OIG presented
            modified recommendation language to facilitate the Agency in evaluating
            methods for gathering information necessary for setting CRT Rule enforcement
            targets. OECA concurred with the modified recommendation. We consider this
            recommendation unresolved pending corrective actions and estimated completion
            dates.

            The OIG deleted recommendation 6 which recommended that OECA evaluate
            E-waste enforcement resource needs and direct available resources as needed.
            This decision was based on the OIG’s review of OECA’s response to the draft
            report stating that it does not have the resources to maintain any initiatives that
            target E-waste exporters. OECA staff explained that they allocate resources and
            staff to priority enforcement issues. Currently, E-waste enforcement is not a
            priority. The OIG accepted the response.

            We made changes to the report as appropriate. The Agency’s complete response,
            along with the OIG’s evaluation, is in appendix A.




13-P-0298                                                                                         19
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                         POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                      BENEFITS (in $000s)

    Rec.   Page                                                                                           Planned        Claimed     Agreed-To
    No.     No.                    Subject                     Status1        Action Official          Completion Date   Amount       Amount

     1      18     Develop a consistent approach for             U       Assistant Administrator for
                   defining E-waste to set the conditions                     Solid Waste and
                   for goal setting and tracking. Identify                Emergency Response
                   and gather information to manage the
                   goals and, if necessary, submit an ICR
                   request to OMB.

     2      18     Develop a more practical process to           U       Assistant Administrator for
                   address the hazards of non-CRT                             Solid Waste and
                   electronic waste that ensures that this                Emergency Response
                   waste is managed in an
                   environmentally sustainable manner.

     3      18     Evaluate the implementation of the            U       Assistant Administrator for
                   currently used electronics certification                   Solid Waste and
                   programs as detailed in the National                   Emergency Response
                   Strategy. If necessary, conduct RCRA
                   inspections (for federal regulations
                   only) of certified recyclers accordingly.

     4      18     Evaluate resource needs for E-waste           U       Assistant Administrator for
                   management and direct available                            Solid Waste and
                   additional resources as needed.                        Emergency Response

     5      18     Evaluate methods for gathering the            U       Assistant Administrator for
                   information necessary to set CRT rule                     Enforcement and
                   enforcement targets such as the use of                 Compliance Assurance
                   RCRA 3007 information request letters
                   to identify CRT exporters.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0298                                                                                                                                       20
                                                                                   Appendix A

               Agency Response and OIG Comments

MEMORANDUM

SUBJECT:	 Response to Office of Inspector General Draft Report No. OPE-FY11-0015:
          Improved Information Could Better Enable EPA to Manage Electronic Waste and
          Enforce Regulations, dated October 9, 2012

FROM:	         Mathy Stanislaus, Assistant Administrator
               Office of Solid Waste and Emergency Response

               Cynthia Giles, Assistant Administrator 

               Office of Enforcement and Compliance Assurance 


TO:	           Carolyn Copper
               Assistant Inspector General for Program Evaluation

Thank you for the opportunity to respond to the issues and recommendations in the draft report
Improved Information Could Better Enable EPA to Manage Electronic Waste and Enforce
Regulations, dated October 9, 2012. Improving the management of electronics and the
enforcement of relevant regulations in the United States is an EPA priority.

For those report recommendations with which the Agency agrees, we have provided a
description of ongoing actions that respond to the recommendations. For those report
recommendations with which the Agency does not agree, we have explained our position. For
your consideration, we have included a Technical Comments Attachment to supplement this
response.

Significance of the National Strategy for Electronics Stewardship

As you know, EPA co-led, with the General Services Administration (GSA) and the Council on
Environmental Quality (CEQ), the development of the National Strategy for Electronics
Stewardship. The National Strategy, released July 20, 2011, carries out the Administration’s
intentions by identifying a leadership role for the U.S. Government, creating incentives for the
design of greener electronics and increased domestic electronics recycling, and promoting more
responsible management of used electronics with U.S. trade partners. It contains four
overarching goals:

   1.	 Build Incentives for Design of Greener Electronics, and Enhance Science, Research and
       Technology Development in the U.S.;
   2.	 Ensure that the Federal Government Leads by Example;




13-P-0298                                                                                        21
   3.	 Increase Safe and Effective Management and Handling of Used Electronics in the U.S.;
       and
   4.	 Reduce Harm from U.S. Exports of e-Waste and Improve Safe Handling of Used 

       Electronics in Developing Countries. 


The National Strategy resulted from extensive collaboration among 16 Federal departments and
agencies, as well as consultation with stakeholders from the electronics, retail, and recycling
industries, environmental organizations, state and local governments, and concerned citizens. As
a strategic document, it identifies areas where we lack sufficient information and data, and where
more efforts in the electronics product lifecycle are needed. EPA committed publically to a
significant number of key projects, programs and initiatives as a result of the intensive and
thoughtful cross-government and cross-sectors deliberations that took place in developing the
National Strategy. Many of EPA’s commitments require input and collaboration across the
government and with a broad set of stakeholders.

The National Strategy represents the Federal Government’s plan for improving electronics
stewardship in the United States and as such, it is EPA’s roadmap for actions. EPA noted to the
OIG the significance of the National Strategy as a priority setting document and the fact that the
commitments EPA made as a consequence of the National Strategy are governing the activities
and resources available for used electronics. However, the draft OIG report does not reflect a
proper appreciation of the National Strategy’s significance in this regard.

 OIG Response: OIG added language to the report that highlights the fact that the National
 Strategy is a priority setting document and is currently governing the activities and resources
 available for electronics. However, the focus of the evaluation was on existing Agency
 electronic programs and regulations and the information used in these programs to manage to
 established goals and targets of programs. As stated in the report, our review of the National
 Strategy was limited to its potential impacts on existing programs, regulations, and the
 collection of management information. Further, the National Strategy is focused primarily on
 federal agencies’ activities whereas the OIG evaluation was focused on EPA’s national
 management of E-waste. It is the conclusion of the OIG that the National Strategy and the
 Agency’s role in “key projects, programs, and initiatives” will not adequately address the
 deficiencies in management information detailed in this report regarding EPA’s role in the
 national management of E-waste. Notably, the National Strategy: (1) does not seek to address
 the Agency’s lack of a uniform definition, (2) echoes the Agency’s 2011 report titled,
 “Electronics Waste Management in the United States Through 2009” in stating that end-of-life
 disposition of used electronics information would be useful but little information is available,
 and (3) does not contain specific goals to increase EPA’s effectiveness in gathering domestic
 E-waste information.

We appreciate the OIG’s recognition of EPA’s achievements in their report. EPA successfully
implemented the Plug-In to e-Cycling program in 2004 and evolved the program to the
Sustainable Materials Management (SMM) Electronics Challenge. EPA worked with
stakeholders to develop a voluntary industry standard and certification program for electronics
recyclers. Currently, there are two accredited certification programs for the electronics recycling
industry: the Responsible Recycling Practices (R2) and the e-Stewards® programs. EPA


13-P-0298                                                                                        22
continues to support safer and more protective recycling by encouraging use of accredited third-
party electronic recycling certification programs. The Agency issued the final Cathode Ray Tube
(CRT) regulation in 2006 and in 2012 proposed a CRT rule amendment to enhance the ability to
track CRT exports. Just recently, EPA launched the national SMM Electronics Challenge. The
objective of this challenge is to raise the bar on responsible management of used electronics by
challenging manufacturers and retailers to voluntarily commit to sending 100% of used
electronics collected for reuse and recycling to third party certified recyclers; increasing the total
amount of used electronics collected for reuse and recycling; and, being transparent about their
efforts by publically posting collection information and data.

 OIG Response: The OIG incorporated the above points that were effective after the 2004
 OIG report that were not already included in other areas of the report into the Noteworthy
 Achievements section of the report, such as the launch of the SMM Electronics Challenge.

This response also provides comments on topics that are incompletely or inaccurately discussed
and addressed in the draft report, including waste management policies in the U.S., the Resource
Conservation and Recovery Act (RCRA) and supporting regulations, and the existence of
collaboration across EPA programs beyond RCRA on other aspects of electronics management.
For example, the draft report states that “Domestically, E-waste in landfills can pose potential
environmental risks when toxic chemicals from discarded electronics leach into groundwater”
(p-2), even though EPA shared with the OIG supporting information that shows landfilling waste
electronics in a well-managed, modern landfill is not expected to pose a risk to groundwater.
Further, the draft report states that “Concerns about E-waste landfill disposal have led federal
and state governments to encourage recycling” (p-2). As noted previously, EPA believes
disposal in a compliant landfill is protective of human health and the environment and is not the
reason that the Federal government encourages recycling of used electronics.

 OIG Response: The OIG amended the final report to attribute the above statements to an EPA
 report and a congressional report, respectively.

As the OIG itself acknowledges on p.2 of the report, EPA’s Solid Waste Management Hierarchy
prioritizes the most environmentally sound methods for municipal solid waste management with
source reduction, reuse and recycling being preferred over disposal. Electronic products are
made from valuable resources and highly engineered materials, including metals, plastics, and
glass that have significant recycling potential. Reusing and recycling electronics conserves our
natural resources and avoids air and water pollution, as well as greenhouse gas emissions that are
caused during extraction and manufacturing of virgin materials.

It would also be appropriate for the OIG to further discuss and recognize the importance of the
Office of Solid Waste and Emergency Response’s (OSWER’s) and the Office of Chemical
Safety and Pollution Prevention’s (OSCPP’s) collaboration on the Electronic Product
Environmental Assessment Tool (EPEAT) due to its importance in source reduction. OSWER
contributes expertise on electronics design specific to: easy and safe disassembly, producing less
waste, using recycled content, using less packaging, and ensuring proper end-of life
management. This collaboration is critical because EPEAT reduces the amount of electronics



13-P-0298                                                                                           23
waste that needs to be reused, recycled or managed while reducing the amount of toxic material
found in electronics waste.


     OIG Response: The OIG included the statement on EPEAT’s effects in the background
     section.

The draft report appears to reflect some misunderstandings of the RCRA regulatory programs
(Subtitle C and Subtitle D), and the way these programs address risks posed by different types of
waste generally. The identification of wastes as either hazardous or non-hazardous is a key
element to determining which program these wastes will be managed under. Therefore, it is
important to have a clear understanding of how EPA defines hazardous waste (e.g., listed vs.
characteristic) and also how risks are managed under both Subtitle C and Subtitle D. For
example, the hazardous waste regulatory program has identified waste CRTs and printed circuit
boards as nearly always expressing a hazardous characteristic, and thus these wastes are
regulated as hazardous when disposed. Many other types of used electronics may not meet the
definition of hazardous waste, but are nonetheless managed at non-hazardous solid waste
disposal facilities, which as stated previously, are protective of human health and the
environment.

     OIG Response: The OIG finding is specific to non-CRT electronics and it relates to the Agency’s
     statement above: “Many other types of used electronics may not meet the definition of hazardous
     waste, but are nonetheless managed at non-hazardous solid waste disposal facilities.” As the
     Agency states, non-CRT electronics may not meet the definition of hazardous waste; however the
     OIG was also told, and studies indicate, that some electronics may meet the definition. The OIG
     concludes that there is uncertainty regarding the hazardous characteristic of non-CRT electronic
     waste. Based on the response above, EPA is allowing non-CRT E-wastes to be disposed of in
     non-hazardous solid waste disposal facilities without requiring testing or review of “generator
     knowledge.” Per RCRA (see 40 CFR § 261), a generator of waste is required to make a
     determination as to whether its waste is hazardous, using either testing or its knowledge of the
     waste. The OIG concludes that the hazard characteristic determination requirement of RCRA is
     not being applied to non-CRT electronics because TCLP is not a practical test for electronics.

The OIG recommended that EPA include certified recyclers in RCRA inspection plans if
certification compliance issues arise based on EPA’s evaluation of certification programs.
However, OIG is confusing the certification bodies’ role for ensuring that their voluntary
certification standards are met with EPA’s independent enforcement role in cases where
violations of RCRA have occurred at a recycling facility. Although EPA participated in the
development of the practices and environmental standards that are found in one of the electronics
recycler certification programs in the U.S. today, these are not EPA programs but programs that
are run by private organizations.35 As such, it is the role of the third party organization or
certifying body to audit and certify the electronics recycling facility, and to ensure continuous
35                                                     ®
  The two certification programs are: (1) the e-Stewards certification program which was created and is run by the
Basel Action Network, a private non-profit organization; and (2) the Responsible Recycling Practices (R2) which is
run by R2 Solutions, also a private non-profit organization.


13-P-0298                                                                                                       24
conformance to these practices and standards. Conformance to the standards, however, does not
relieve recyclers of their RCRA or other federal, state, or local legal obligations. Should EPA
learn of potential RCRA violations, EPA will investigate the alleged violations and take
appropriate enforcement action, as necessary. EPA Regions and states inspect electronics
recycling facilities, which may or may not be certified, and as appropriate will take enforcement
actions if a violation is discovered. EPA realizes that these certification programs are not the
only answer to ensuring proper electronics management, but we expect that they will raise the
environmental floor for the electronics recycling industry as a whole. EPA plans to evaluate the
effectiveness of the implementation of the certification programs. Additionally, EPA continues
to work with the certification programs to encourage the continual improvement of electronics
recycling practices and standards.

OIG Response: The OIG clarified the findings/recommendation language in the report to state
that based on the findings of the planned National Strategy review of the certification programs,
if necessary, EPA will plan RCRA inspections (for federal regulations only) of certified recyclers
accordingly. The OIG has documented articles detailing violations of certification standards as
well as federal standards by certified recyclers. The OIG concludes that given the federal initiative
to utilize only certified recycling facilities and recent accounts of violating certified recyclers,
EPA minimizes risk and increases effectiveness of its E-waste management by including certified
recyclers in their inspections.

Finally, it is unclear why certain conclusions in the report are drawn as there are no references
cited. It would be helpful to the reader if the OIG provided a bibliography containing the reports,
publications, transcripts and information that they used to draw their conclusions. (Note: See
Technical Comments Attachment for further discussion of these comments, as well as other
comments.)

 OIG Response: The OIG draws its conclusions in part, from the information provided by the
 Agency during the course of our review. Chapter 1 provides the purpose and background, and
 discusses how we conducted our work and the criteria we relied upon. This report provides our
 findings and conclusions that address our objectives for performing the evaluation.

EPA Comments on individual recommendations in draft report

Recommendation #1: Define e-waste to set the conditions for goal setting and tracking.
Identify and gather information to manage the goals, and, if necessary, submit an ICR
request to OMB.

EPA Response:

EPA agrees that we should define, in the context of individual actions, what used electronics is
considered by that action, as appropriate.




13-P-0298                                                                                          25
We appreciate the OIG’s suggestion that EPA develop a single definition of used electronics.
EPA and the other agencies that participated in the development of the National Strategy for
Electronics Stewardship collectively considered this issue and were unable to come up with a
meaningful definition that would not quickly become obsolete due to the changing nature of
electronic devices and frequent introduction of new and unique products. Even without the single
definition of used electronics, agencies were able to set goals, identify projects and set tracking
mechanisms for progress. We do agree that for each used electronics action, program or data
gathering effort that we first identify the types of electronics that will be included in the effort
and any rationale for the decision.

We agree that information on used electronics is important and we currently gather appropriate
information as part of our municipal solid waste characterization report and as part of our
efforts surrounding certified electronics recycling that allows the Agency to manage our goals.
In addition, we already make information that we have on exports of CRTs publically available.
Once results from the three export flows projects being conducted under the National Strategy
are released (see discussion below), we will assess the information and incorporate that
information into our reports and decision-making, as appropriate. We will submit an ICR
request to OMB as appropriate and necessary, but have not done so to date.

Since 2005, we have collected and published information about the disposition and end-of life
management of electronics collected for recycling and we intend to continue to provide this
information to the public. In 2005, based on recommendations from the OIG, we developed two
approaches for collecting a set of baseline end-of-life electronics data. This work led to the July
2008 release of a baseline data report. We released an updated report entitled Electronics Waste
Management in the United States through 2009 (November 2010). Although EPA acknowledged
in that report that it extrapolated available information to provide national estimates, we believe
that the report generally reflects the state of electronics waste in the United States nationally. We
intend to continue to collect this type of information and incorporate it into EPA’s Municipal
Solid Waste Characterization Report.

In addition, we already post data specific to CRTs exported for recycling and reuse on our
website and have proposed revisions to the CRT rule that will further enhance our knowledge of
CRT exports.

The National Strategy recognized that the U.S. government lacks information on the amount of
used electronics that are exported. Consequently, under the National Strategy, there are three
ongoing projects that will help to better characterize the flow of used electronics from the United
States. Specifically:

   U.S. International Trade Commission (USITC) has launched a study that gathers information
    from electronics recyclers on what they export and to where;
   EPA, through the organization Solving the E-waste Problem (StEP), is supporting efforts to
    characterize transboundary flows of used electronics; and
   EPA, through the Commission of Environmental Cooperation, is supporting efforts to
    characterize the flow of electronics from North America.




13-P-0298                                                                                          26
OIG Response: OIG understands the Agency’s explanation of the complexities of defining E-waste
or used electronics (which we also detail in the report). However, the OIG continues to conclude that
a uniform definition would allow the Agency to fully identify the universe and ensure effective
E-waste management to protect public health and conserve valuable resources. The OIG
acknowledges the Agency’s response that development of a uniform definition is not feasible at this
time. The OIG held a subsequent meeting with the Agency to discuss modified recommendation
language to facilitate the Agency in considering a more consistent approach to defining E-waste for
its various programs. A consistent approach for defining E-waste would serve as a clear means to set
and track goals as well as the basis for necessary information collection. To assist the Agency in this
effort, the report detailed methodologies used by the recycler certification bodies in defining E-waste.
These entities deal with the same complex issues described above. The OIG requests that the Agency
provide estimated timeframes for completion. The Agency concurred with the modified
recommendation at the subsequent meeting.

The OIG accepts the Agency’s response to the portions of the recommendation regarding identifying
and gathering information and utilizing the ICR when necessary. We consider this recommendation
unresolved pending corrective actions for all parts of the recommendation and estimated completion
dates, and the responsible party/office.


Recommendation # 2: Develop a more practical characterization procedure for non-CRT
electronics.

EPA Response:

We disagree with this recommendation. We believe that the Toxicity Characteristic Leaching
Procedure (TCLP) is an appropriate way to evaluate the potential hazards of e-waste under
plausible domestic disposal conditions (i.e., landfilling). Any drawbacks that the TCLP may have
with testing the leachability of waste electronics would also apply to any alternative testing
procedure, including alternative leaching procedures that could be used. We also believe that
development of a broad hazardous waste listing for waste electronics under RCRA would not be
supported by currently available data.

EPA evaluated the appropriateness of the TCLP test in the report entitled RCRA Toxicity
Characterization of Computer CPUs and Other Discarded Electronic Devices (July 15, 2004),
prepared by Dr. Timothy Townsend. Later work by Dr. Townsend showed that use of lead-free
solders would significantly reduce the lead leaching potential of printed circuit boards used in
electronic devices (Townsend et al, 2008). While we acknowledge that the TCLP test has some
drawbacks in the case of debris-like waste, such as electronics, the same drawbacks would apply
to other testing procedures that could be used to characterize used electronics, such as alternative
leaching procedures or testing for the total content of particular metals. Electronics waste is
highly heterogeneous and there are a large number of different types and models of waste
electronic products collected for management at any time. In addition, the suite of devices
available for sale can change rapidly over time (e.g., cell phone turnover is often every 2 years).




13-P-0298                                                                                         27
We do not plan to require generators to test in order to determine the regulatory status of waste
electronics when testing is not required for other types of wastes36 (the Agency considered and
rejected this general approach; see 55 FR 11829-30; March 29, 1990); rather, under the RCRA
regulations, the generator may use either testing or knowledge of the materials or processes
involved in generating the waste to make the determination. (See 40 CFR 262.11).

Development of a hazardous waste listing under RCRA would also be problematic. It would
need to be based on the same type of data described above, with the same issues about e-waste
heterogeneity and change over time. Based on the data we currently have, used electronics
broadly defined (exclusive of CRTs and printed circuit boards) are unlikely to fail the Toxicity
Characteristic regulatory test or exhibit any of the other hazardous waste characteristics, and are
unlikely to pose risks to human health and the environment when disposed using plausible U.S.
domestic waste management practices. Also, because of regulation in the European Union and
the successful voluntary consensus EPEAT standard, the expected trend is that over time more
electronics enter end-of life containing less of the known toxins than in the past.

Finally, while the risks from potentially unsafe recycling practices in developing nations are real,
RCRA regulations must be based on risks posed by plausible management at disposal facilities
within the United States.

OIG Response: The OIG acknowledges the waste characterization difficulties associated with
non-CRT E-waste. As the Agency states above, non-CRT electronics are “unlikely to fail the
Toxicity Characteristic regulatory test”; however, research studies demonstrate that some electronics
may indeed fail the test. The OIG concludes that there is uncertainty regarding the hazardous
characteristics of non-CRT electronic waste. EPA is allowing non-CRT E-wastes to be disposed of
in non-hazardous solid waste disposal facilities without requiring a test or review of “generator
knowledge.” Per RCRA (see 40 CFR 261), a generator of waste is required to make a determination
as to whether its waste is hazardous, using either testing or its knowledge of the waste. The OIG
concludes that the hazard characteristic determination requirement of RCRA is not being applied to
non-CRT electronics because TCLP is not a practical test for electronics. The OIG understands from
the Agency responses that developing a more practical laboratory procedure at this time is not
feasible. The OIG held a subsequent meeting with the Agency to discuss modified recommendation
language to facilitate the Agency in considering a broader approach to achieving RCRA
requirements. The Agency disagreed with the modified language at the meeting, stating that any
drawbacks that the TCLP may have with testing the leachability of waste electronics would also
apply to any alternative testing process, including alternative leaching processes that could be used.

OIG accepts the Agency’s proposed revision to recommendation 2. We consider this
recommendation unresolved pending receipt of corrective actions about EPA’s ability to monitor,
identify, and ensure proper disposal of non-CRT E-waste, including completion dates.




36
     We would note that the Agency could not mandate a testing requirement without going through a rulemaking.


13-P-0298                                                                                                        28
Recommendation #3: Evaluate the implementation of the currently used electronics
certification programs as detailed in the National Strategy. If certification compliance
issues arise after this review, include certified recyclers in RCRA inspection work plans to
ensure that they are complying with federal regulations.

EPA Response:

We agree with the recommendation that we evaluate the implementation of the currently used
certification programs as detailed in the National Strategy for Electronics Stewardship.

To meet our obligations and commitments under the National Strategy, EPA is working with
GSA and the applicable accreditation board to conduct a study of the implementation of the
current used electronics certification programs. This review will evaluate various aspects of the
certification programs: vigorousness of facility and downstream audits; consistency and
frequency of audits and auditor training. The results of the study will be used to inform the
Federal Government’s policy on management of its used electronics.

We believe the portion of the recommendation that states that if certification compliance issues
arise after this review, include certified recyclers in RCRA inspection work plans to ensure that
they are complying with federal regulations is not reflective of EPA’s existing policy, and thus,
do not support.

The OIG has inappropriately merged two issues: conformance to the voluntary practices and
standards established under the certification recycling programs and compliance with federal
regulation. Conformance to electronics recycler certification standards does not relieve recyclers
of used electronics of their RCRA or other federal, state, or local legal obligations, nor does
conformance to voluntary standards obviate the responsibility of regulatory authorities to
conduct RCRA inspections.

Should EPA learn of potential violations of RCRA legal requirements, EPA will investigate the
alleged violations and take appropriate enforcement action, as necessary. EPA Regions and states
continue to inspect electronics recycling facilities that may or may not be certified, and take
enforcement actions as appropriate.

Since the electronics recycler certification practices and standards are voluntary and are not EPA
standards, EPA does not audit or certify facilities for conformance with the certification
standards and, therefore, is not responsible for decisions related to certification status.

Determining if a facility is in conformance with a standard is the responsibility of the certifying
body (CB). The CB also investigates complaints against certified facilities. The severity of the
complaint determines whether the CB suspends certification or whether the company loses
certification completely.




13-P-0298                                                                                         29
 OIG Response: The OIG accepts the Agency’s response to the part of the recommendation
 regarding evaluating the implementation of the current certification programs. We consider this
 part of the recommendation unresolved pending estimated completion dates.

 The OIG understands the difference between conformance with voluntary practices and
 compliance with regulation. However, the OIG still concludes that certified recycling facilities
 should be included in RCRA inspection work plans. The OIG documented accounts where
 certified recyclers were found to be violating both certification standards and federal regulations.
 The OIG concludes that given the federal initiative to utilize only certified recycling facilities and
 recent accounts of violating certified recyclers, it is in the best interest of EPA to include certified
 recyclers in their inspections.

 Regarding the second part of the recommendation, the OIG will clarify the language in the report
 to state that based on the findings of the planned National Strategy review of the certification
 programs, if necessary, EPA will plan RCRA inspections (for federal regulations only) of
 certified recyclers accordingly. We consider this part of the recommendation unresolved pending
 the inclusion of proposed alternatives to this part of the recommendation, estimated completion
 dates, and the responsible party/office.

Recommendation #4: Evaluate resource needs for e-waste management and direct
available additional resources as needed.

EPA Response:

We agree with the recommendation to evaluate resource needs for e-waste management and
direct available additional resources as needed.

We will continue to set priorities for responding to action items under the National Strategy
considering available resources.


  OIG Response: The OIG accepts the Agency’s response to this recommendation to evaluate
  resource needs for E-waste management. We consider this recommendation unresolved pending
  the inclusion of estimated completion dates.

Recommendation #5: Enforce the CRT Rule in a more proactive manner by gathering the
information necessary to set CRT rule enforcement targets.

EPA Response:

We disagree with the recommendation to enforce the CRT Rule in a more proactive manner by
gathering the information necessary to set CRT rule enforcement targets.




13-P-0298                                                                                            30
Given the current regulatory requirements and the fact that EPA has proposed to modify the CRT
rule to gather additional information37, EPA does not believe it is necessary to undertake any
additional data gathering efforts. The regulations at 40 C.F.R. §261.41 require companies that
export used CRTs for recycling or reuse to submit written notifications to EPA Regional
Administrators and Regional Import-Export Coordinators. As of September 2012, 136
companies have notified EPA of their intent to export CRTs for reuse; six companies have
notified of their intent to recycle (one company has notified for both reuse and recycling). In
total, there are 141 companies that have notified of their intent to export CRTs for reuse or to
recycle. This information can be found on EPA’s website, under Export Requirements for
Cathode Ray Tubes: http://www.epa.gov/osw/hazard/international/crts/reuse.htm

As the OIG previously noted, EPA launched a two year focused enforcement effort directed at
CRT exports. Between 2008 and 2010, EPA opened over 125 investigations against electronic
waste recyclers. All EPA Regions participated in this effort and conducted 91 inspections and
identified violations at 19 facilities. As also noted in your report, Regions 4 and 7 maintained an
enforcement priority targeting electronic recycling facilities in 2011 and into 2012. EPA has a
well-established compliance monitoring and enforcement program for all RCRA requirements
and we now include the CRT requirements in that program. As part of this overall RCRA
compliance monitoring and enforcement program, Regions and states continue to inspect
electronics recycling facilities, which may or may not be certified, and bring appropriate
enforcement actions each year. Regions also continue to respond to any tips received regarding
shipments of CRTs and to investigate these facilities as appropriate. The Office of Enforcement
and Compliance Assistance (OECA) maintains the expertise developed during the initial focus
effort on electronics recyclers and continues to assist the Regions in developing new cases.

OIG Response: The OIG acknowledges the past efforts of the Agency with CRT Rule
enforcement. The OIG concludes that based on enforcement results of EPA regions that the
OIG visited in this evaluation, enforcement work still remains for the CRT Rule. The OIG also
acknowledges the modifications made to the CRT Rule to gather additional information. As
detailed in the report, some EPA staff we interviewed do not believe that the modifications will
assist in gaining a better understanding of the CRT exporter universe to help set enforcement
targets.

The OIG concludes that the Agency needs to evaluate methods for gathering the information
necessary to set CRT Rule enforcement targets such as the use of RCRA 3007 information
request letters to identify CRT exporters. The OIG presented modified recommendation
language to facilitate the Agency in evaluating information gathering methods. OECA
concurred with the modified recommendation. We consider this recommendation unresolved
pending corrective actions and estimated completion dates.

Recommendation #6: Evaluate resource needs for e-waste enforcement and direct available 

additional resources as needed.

EPA Response:


37
   The proposed CRT rule also proposed revisions of certain export provisions to better track exports of CRTs for reuse and
recycling,


13-P-0298                                                                                                                     31
We disagree with the recommendation to evaluate resource needs for e-waste enforcement and
direct available additional resources as needed.

Since the CRT enforcement effort was initiated in 2008, EPA’s enforcement resources have
declined. EPA, therefore, cannot maintain an initiative solely targeted at electronic waste
exporters. Instead, EPA will continue to inspect electronics recyclers as part of its routine
compliance monitoring and enforcement efforts to address the universe of RCRA-regulated
facilities.

OECA continues to share regional questions/challenges of cases about used electronics on
monthly teleconferences with the Regions, as well as at annual meetings of import/export
regional coordinators. OECA has also provided the regions with a template for a RCRA 3007
information request letter; this was noted in your report as a “Regional Best Practice.”


 OIG Response: The OIG acknowledges EPA’s resource constraints with respect to an
 enforcement initiative targeted solely on CRT exporters. In a subsequent meeting, OECA staff
 also explained that resources and staff are directed to address priority enforcement issues.
 E-waste enforcement is not a priority issue area for OECA currently. The OIG accepts EPA’s
 response and will delete this recommendation.


Contact information

If you have any questions regarding this response, please contact Suzanne Rudzinski, Director,
Office of Resource Conservation and Recovery at (703)-308-8895.

Attachment




13-P-0298                                                                                        32
                                                                              Appendix B

                                    Distribution
Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Assistant Administrator for Enforcement and Compliance Assurance
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Assistant Administrators for Solid Waste and Emergency Response
Principal Deputy Assistant Administrator for Enforcement and Compliance Assurance
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-Up Coordinator, Office of Enforcement and Compliance Assurance




13-P-0298                                                                             33
